TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Continued Monitoring of the PRIME
                   Contractor Is Needed to Ensure Proper
                                   Billing



                                     November 2005

                          Reference Number: 2006-10-008



       The Treasury Inspector General for Tax Administration (TIGTA) has designated
       this audit report as Limited Official Use (LOU) pursuant to Chapter III, Section 2
       of the Treasury Security Manual (TD P 71-10) entitled, “Limited Official Use
       Information and Other Legends.” Because this document has been designated
       LOU, it may only be made available to those officials that have a need to know the
       information contained within this report in the performance of their official duties.
       This report must be safeguarded and protected from unauthorized disclosure;
       therefore, all requests for disclosure of this report must be referred to the Disclosure
       Section within the TIGTA’s Office of Chief Counsel.




                                    Limited Official Use

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         Limited Official Use
                 Continued Monitoring of the PRIME Contractor Is Needed to
                                   Ensure Proper Billing




                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Nancy LaManna, Audit Manager
Thomas Dori, Senior Auditor
Philip A. Smith, Senior Auditor
Eleonor Lindner, Auditor




                                    Limited Official Use

                                                                                       Page 2
